                              NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM


Date:          March 25, 2009

To:            Mary F. Santonastasso
               Division Director, Division of Institution and Award Support
               (BFA/DIAS)

               Karen Tiplady
               Division Director, Division of Grants and Agreements (BFA/DGA)

From:          Michael R. Kuklok /s/
               Senior Audit Manager

Subject:       NSF OIG Report Number 09-1-006
               Audit of Effort Reporting System, University of Arizona

         Attached is the final report prepared by Williams Adley & Company, LLP, an
independent public accounting firm, on the audit of the payroll distribution and effort reporting
system used by the University of Arizona to support salary and wages charged to NSF grants.
The University’s comments to the draft report have been summarized after the recommendations
for each audit finding and the auditor’s response has been provided to these comments. The full
text of the University’s comments is included as Appendix A to the audit report.

        The audit found that the University generally has a well established Federal grants
management program. However, because the University, prior to FY 2008, did not place
sufficient emphasis on effort reporting, Arizona needs to improve its internal controls to ensure
proper implementation and oversight of its labor effort reporting system. Without appropriate
controls for certifying labor effort reports, Arizona has less assurance that the certifications are
reliable and reasonably support salaries and wages charged to NSF’s sponsored projects. In
addition, weak internal controls lead to NSF paying $16,584 in excessive salaries, fringe benefits
and overhead due to faculty exceeding NSF summer salary limitations. The University also had
not conducted an independent internal evaluation of the effort reporting system since the system
was changed to an electronic format in 1992.

       We consider Arizona’s internal control procedural weaknesses identified in the audit
findings to be significant. Accordingly, we request that your office work with the University and
the cognizant audit agency, the Department of Health and Human Services (DHHS), to develop a
written Corrective Action Plan detailing specific actions taken and/or planned to address each
audit recommendation. Milestone dates should be provided for corrective actions not yet
completed.

        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that Arizona has adequately addressed the recommendation and proposed corrective actions have
been satisfactorily implemented. Please note that we have sent a copy of the audit report under
separate cover to Jon D. Crowder of DHHS-OIG.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

      •   Provided a detailed audit program for the agreed upon procedures review and ensured
          Williams Adley’s approach and planning for the audit was appropriate;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored progress of the audit at key points by accompanying Williams Adley auditors
          onsite at the grantee;
      •   Coordinated periodic meetings with Williams Adley and OIG management to discuss
          audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Williams Adley, to ensure compliance with
          Generally Accepted Government Auditing Standards and the NSF Audit Program; and
      •   Coordinated issuance of the audit report.

        Williams Adley & Company, LLP is responsible for the attached audit report on
Arizona’s payroll distribution and effort reporting system and the conclusions expressed in the
audit report. The NSF OIG does not express an opinion on the audit report’s conclusions.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please feel free to call me at 703-292-4975 or Jerel Silver at 703-292-8461.

Enclosure

cc:       Gilbert Tran, Technical Manager, Office of Management and Budget
          Thomas Cooley, Director and Chief Financial Officer, BFA/OAD
          Alexander Wynnyk, Branch Chief, BFA/DIAS
          Charles Zeigler, Special Assistant, BFA/DIA




                                                2
Audit of Effort Reporting System

     University of Arizona
       Tucson, Arizona


    National Science Foundation
    Office of Inspector General


          March 25, 2009
         NSF OIG 09-1-006




            Audit Performed by:
     Williams, Adley & Company, LLP
      1250 H Street N.W., Suite 1150
          Washington, DC 20005
This page intentionally left blank
                                Executive Summary
        This audit report provides the results of our review of the effort reporting system
used by the University of Arizona (Arizona) to support salaries and wages charged to
National Science Foundation (NSF) awards. In fiscal year 2007, Arizona had total
Federal sponsored projects of approximately $330.6 million, of which $47.2 million or 14
percent were funded by NSF. Of this amount, over $12.8 million or 27 percent were for
labor costs directly charged to NSF awards. This audit is one of a series of Office of
Inspector General (OIG) reviews of the labor effort distribution systems being conducted
at NSF’s top-funded universities to assess the adequacy of internal controls to ensure
salary and wage costs claimed on NSF grants are properly managed, accounted for, and
monitored.

        Our review disclosed that Arizona generally has a well established Federal grants
management program. However, the audit disclosed several internal control weaknesses
that Arizona needs to correct to ensure proper implementation and oversight of its effort
reporting system. Our review of 30 sampled employees, with total FY 2007 NSF salary
charges of $724,186, found that the effort reporting system did not ensure salaries and
wages charged to NSF awards reasonably reflected actual work performed on the
sponsored projects. Specifically, we determined Arizona did not meet Federal
requirements for providing a suitable means of verification that the work was actually
performed when certifying labor effort reports for NSF grants. We also identified system
weaknesses that allowed faculty to exceed NSF summer salary limitations. Further,
Arizona did not have an independent internal evaluation of the effort reporting system
since it changed to an electronic format in 1992. Finally, we identified several other
system weaknesses over cost sharing, faculty effort estimation when no faculty
commitments were made to a sponsored project, and the establishment of a precision
range for correction of labor effort variances.

        As a result, Arizona provides less assurance to Federal sponsoring agencies that
effort reports are reliable in reasonably supporting salaries and wages charged to
sponsored projects. Specifically, Arizona department administrative officials improperly
certified 770 of 780 effort reports, supporting $709,520 (98%) of FY 2007 NSF salary
charges reviewed and overcharged NSF $16,584 in salary, fringe benefits and overhead
by exceeding NSF compensation policies. The nature of these control weaknesses raises
concerns about the reasonableness and allowability of the remaining $12.1 million of FY
2007 labor charges to NSF grants, and could affect the reliability of the salary portion of
Arizona’s other $283.4 million of Federal awards.

        These weaknesses occurred because Arizona, prior to FY 2008, did not place
sufficient emphasis on effort reporting. Specifically, Arizona had not (i) established
sufficient detailed written guidance for all effort reporting processes to ensure full
compliance with Federal requirements, (ii) performed adequate monitoring to ensure all
Arizona departments complied with established effort reporting policies and procedures,




                                             i
and (iii) ensured cognizant personnel received adequate training on their effort reporting
responsibilities.

        Arizona is in the process of implementing a new financial management system
scheduled to be operational in calendar year 2010 and implemented an interim effort
reporting system in FY 2008. Arizona has recognized the weaknesses identified in the
report. The recommendations, made in this report, take this into consideration by
reminding Arizona of the importance of ensuring the new system has the capabilities and
controls needed to correct these weaknesses.

        Our recommendations were primarily directed toward enhancing the University’s
centralized oversight of the labor effort reporting system by (i) updating and revising
policies to fully comply with Federal regulations, (ii) providing adequate oversight of the
effort reporting process and (iii) providing employee training to ensure cognizant
department and academic staff fully understand their effort reporting responsibilities so
that established procedures are accurately and consistently implemented. Finally, we
recommended that Arizona resolve the $16,584 in questioned salary, fringe benefits and
overhead.

       A draft audit report requesting comments on the findings and recommendations
was issued to the University of Arizona. The University concurred with the findings and
recommendations and stated that they revised or plan to revise various policies and
procedures, implemented and improved its paper-based interim Effort Reporting System
which began in January 2008 and plans to implement an electronic Effort Reporting
System in calendar year 2010. The University also said they hired a Financial
Compliance Coordinator to oversee the entire effort reporting process to ensure
departments appropriately certify effort reports and they removed the questioned costs to
a non-sponsored account.

        Arizona’s responses, once implemented, should address our audit
recommendations. NSF should work with the cognizant audit agency and/or Arizona to
ensure the University develops an acceptable corrective action plan to resolve each audit
recommendation. We have summarized Arizona’s responses and provided our comments
after each recommendation in the report. We also included Arizona’s response to our
draft report in its entirety as Appendix A.




                                            ii
EXECUTIVE SUMMARY                                               i

INTRODUCTION

  Background                                                    1
  Objectives, Scope, and Methodology                            2

FINDING AND RECOMMENDATIONS

  1. Improvements Needed for the University of Arizona Effort
     Reporting System to Effectively Comply with Federal
     Requirements and University Policy                         5

  2. Additional Internal Control Weaknesses Needing
     Management Attention                                       14

APPENDIX

  Appendix A:      Arizona Response to Draft Audit Report       19


   ACRONYMS

   NSF             National Science Foundation
   PI              Principal Investigator
   OIG             Office of Inspector General
   OMB             U.S. Office of Management and Budget
   OTR             On Line Time Roster
   SPS             Sponsored Projects Services
                                  INTRODUCTION

BACKGROUND

        Approximately one third of the National Science Foundation (NSF) award funds
are provided for salaries and wages, amounting to about $1.3 billion annually at
universities. Also, in recent years, there have been several civil settlements involving
overcharges of labor costs to Federal grants, amounting to millions of dollars at several
major universities, including some funded by NSF. Because of these legal actions and
the material amounts of labor costs paid from NSF awards, the Office of Inspector
General (OIG) is undertaking a series of reviews of the labor effort distribution systems
at NSF’s top-funded universities in order to assess the adequacy of internal controls to
ensure salary and wage costs claimed on NSF grants are properly managed, accounted
for, and monitored. This audit, involving the University of Arizona, is one of the planned
reviews of such labor effort distribution systems.

         The University of Arizona (Arizona) is a premier, student-centered research
institution. It was established in 1885 as the first university in the Arizona Territory and
Arizona’s only land grant institution. Arizona’s fundamental missions are teaching,
research, and public service. The University has become one of the nation's top 20 public
research institutions with premier programs in optics, water research, and astronomy.
Arizona offers 334 fields of study at the bachelor, masters, doctoral, and first professional
level and has 18 colleges and 12 schools located on the 378 acre campus. The University
has over 36,000 students and 14,000 employees.

        The University derives the majority of its funding from sponsored research
projects, student tuition, and state subsidies. For FY 2007, the University received
$422.1 million in grants and contracts which included approximately $330.6 million, or
78 percent, from the Federal government. Approximately $47.2 million, or 14 percent, of
the Federally-sponsored project awards were provided by NSF.

       Within the Arizona Office of the Vice President for Research, Graduate Studies,
and Economic Development, the Sponsored Projects Services (SPS) is responsible for the
management and oversight of Federal grant programs. Primarily, SPS provides pre-
award and post-award administrative services for sponsored programs. SPS develops
Arizona policies and procedures for Federal grants management and is charged with
implementing appropriate training programs. Within Arizona Business Affairs, the
Financial Services Office is responsible for the overall internal controls over the
University’s financial activities while Systems Control is responsible for compiling,
generating, and maintaining effort reports.

     Senior administrative officials located within each academic department are tasked
with the management and oversight of sponsored projects to ensure compliance with
Federal and University policies and procedures. They typically assist and advise faculty
members on Federal grants management and review financial information to ensure that
award accounts and budgets are created accurately in the University’s financial system,


                                             1
award expenditures are monitored on a monthly basis, and charges to Federal awards are
appropriate. Principal Investigators (PI) have primary responsibility for all aspects of
Federal grants including approval of all charges and ensuring that the research is
conducted in accordance with the award terms and conditions.

Objective, Scope, and Methodology

        Audit Objectives. Our audit objectives were to: (a) evaluate whether Arizona
internal controls are adequate to properly manage, account for, monitor, and report salary
and wage costs on NSF grants in accordance with the U.S. Office of Management and
Budget (OMB) and NSF grant requirements and (b) determine if salaries and wages
charged to NSF awards are allowable, allocable, and reasonable in accordance with
Federal cost principles and NSF award terms and conditions.

        Scope and Methodology. The audit focused on Arizona’s effort reporting system
and accordingly reviewed internal controls for ensuring that labor costs charged to NSF
(i) were actually incurred, (ii) benefited NSF awards, (iii) were accurately and timely
recorded and charged to NSF, and (iv) were for allowable and allocable-type activities as
required by Federal and NSF requirements. In addition, we evaluated if the level of PI
effort pledged in grant proposal and award documents was actually contributed by the
faculty member to accomplish award objectives.

        To address each of the control objectives, the NSF OIG engaged a statistician to
provide expert advice in selecting a statistical sample of employee salary records for
testing. The use of statistical tools and methodology will enable projecting our audit
results to the entire population of universities to be included in the planned reviews of
payroll distribution systems nationwide. However, due to the small statistical sample size
of 30 employees tested, we are not able to make any projections to the total Arizona
population of labor costs charged to NSF grants. Specifically, the FY 2007 salary and
wage costs for the 30 sample employees tested amounted to $724,186 and were supported
by 780 effort reports. Our statistical sample was derived from a total population of 1,071
Arizona employees, who charged $12.8 million of salaries to NSF grants during FY
2007. This population excluded (a) any employee with total salary costs of $100 or less
and (b) all salary charges for undergraduate students. These amounts were excluded
because of their small dollar value and the difficulty in locating undergraduate students
for personal interviews.

       We interviewed key University officials and reviewed the organization structure
and written policies and procedures to assess the “attitude” or “tone at the top” toward
grants management and compliance in general as it affects effort reporting.

        We compared Arizona’s policies and procedures to Federal and NSF requirements
for allocating labor costs to Federal awards and interviewed Arizona personnel to gain an
understanding of the controls in place to ensure salaries and wages charged to NSF
awards were reasonable and allowable. For each statistically selected salary record, we




                                            2
obtained the following documentation to determine whether labor costs Arizona charged
NSF awards met the control objectives:

       •   Effort reports documenting 100 percent of each employee’s compensation
           allocated to sponsored and non-sponsored projects for each reporting period.

       •   Appointment letters or other documents supporting the approved annual salary
           for employees.

       •   Personal Service Operation System reports detailing the actual salaries and
           wages charged to sponsored projects and other activities for each employee
           during each reporting period.

       •   Award documents to determine whether the grant had any terms and
           conditions that would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awards were incurred and
benefited NSF awards, we corroborated the information on the effort reports by
interviewing the 30 sampled employees. We inquired whether (a) the labor charges
documented were actually incurred on projects and activities, (b) the approximate
percentage of effort actually worked on each sponsored project and/or activity was
reasonably consistent with NSF labor charges, and (c) the type of work performed on
NSF projects was generally consistent with the scope of the awards. In addition, we
interviewed administrative officials in academic departments of the sampled employees
to determine how they met the Federal and University certification requirement on
verifying effort reports to ensure the work was actually performed as shown on the
reports. We also discussed with department administrative officials their procedures for
processing and monitoring employee salary charges to Federal grants. Additionally, we
interviewed selected PIs to determine the number of projects and personnel they were
responsible for and their processes for verifying effort reporting.

        To confirm that faculty effort pledged in grant proposals was actually contributed
to accomplish grant objectives, we reviewed processes for reporting and tracking PI
effort and whether the associated salary costs were properly included in the organized
research base for computation of the University’s indirect cost rate. We reviewed award
documents for all Federal grants that a faculty member worked on during FY 2007 to
determine the effort pledged on each project and compared this proposed effort to the
approximate percentage of actual effort worked on the project. In addition, we
determined whether and how Arizona tracked and documented PI effort on sponsored
projects when no faculty salary support was requested or reimbursed by the Federal
Government.

        To determine whether labor costs were accurately recorded and charged to NSF,
we compared the amounts in appointment letters or other documentation supporting
salaries and wages paid to the amounts recorded in the Personal Service Operation
System for each individual in our selected sample. We recalculated salary and wage


                                            3
costs charged to NSF projects by using the salary shown on supporting documentation
and apportioning it by the period of time and percent of effort represented on the effort
reports. We also reviewed labor transactions to determine whether Arizona followed
Federal, NSF, and University requirements on charging labor costs to NSF projects.

        The audit determined whether Arizona officials certified effort reports in a timely
manner by comparing the date the effort reporting period ended to the date the reports
were certified. Timeliness was based on Arizona’s internal policy requiring that effort
reports are completed in accordance with the bi-weekly payroll schedule.

        Finally, we reviewed prior audit reports on Arizona’s Federal grants management
program performed by OMB Circular A-133 auditors and the University’s internal
auditors to determine whether there were any audit findings and recommendations on
labor effort reporting. Specifically, we interviewed cognizant Internal Audit staff and
reviewed the working papers, as needed, to gain an understanding of the scope and
procedures used in any audits of Arizona’s payroll distribution reporting system and/or
University management of labor costs charged to Federal projects. We met with
Arizona’s A-133 auditors to discuss their overall audit scope and procedures used for
reviewing salaries and wages charged to Federal awards and their review of the labor
effort reporting system. Accordingly, we reviewed the most current A-133 audit working
papers available during our site visit to ascertain the actual audit scope and procedures
used by the auditors in order to (i) preclude any duplicative audit work and (ii) to
determine the specific work performed on the labor effort reporting system.

        Onsite audit work at the Arizona campus was performed during two 2-week
periods in January and March 2008. The remainder of the audit work was completed
through phone interviews, emails, and documentation requests through December 2008.
We were engaged to perform the above audit objectives by the NSF OIG. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                            4
                      FINDING AND RECOMMENDATIONS

1. University of Arizona Effort Reporting System does not Comply with Federal
Requirements and University Policy

OMB Requirements for Labor Effort Reporting

         OMB Circular A-21, Cost Principles for Educational Institutions, requires
certification of labor effort contributed by employees on Federal awards to reasonably
reflect the actual labor effort contributed by the employee to meet the objectives of the
award. The effort reporting system must provide for after-the-fact confirmation of
employee activity by the employee conducting the work being reported or by an official
that is in a position to know whether the work was performed. For example, a PI with
first hand knowledge of the work performed or an administrative official obtaining a
suitable means of verification that the work was performed as shown on the effort report.
The Circular also requires universities to provide for independent internal evaluations to
ensure the effort reporting system’s effectiveness and compliance with Federal standards.
In addition, NSF limits its funding on the amount that faculty can earn in the summer
months to no more than two-ninths of their academic salary. As such, “the recipient
institution is responsible for ensuring that costs charged to a sponsored agreement are
allowable, allocable, and reasonable under these cost principles” and “must provide for
adequate documentation to support costs charged to sponsored agreements.”1

       Consistent with the Circular A-21 requirement for “sound business management
practices,” OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organization,2 requires entities receiving Federal awards to establish and maintain
internal controls that are designed to reasonably ensure compliance with Federal laws,
regulations, and program compliance.

Arizona’s Effort Reporting System

        Pursuant to the OMB requirements, Arizona has established department On Line
Time Rosters (OTR) to document the after-the-fact certification of the reasonableness of
salaries directly charged to sponsored projects and other activities on which an employee
works. The OTRs (effort reports) were produced every two weeks from the payroll
distribution system. Arizona's System Control electronically generated OTRs on a bi-
weekly basis and distributed them via the web to departmental offices according to the
timeline established by the Arizona Payroll Office. Arizona has a decentralized

1
         Paragraphs C.4.d.(1) and A.2.e., respectively, of OMB Circular A-21, Cost Principles for
Educational Institutions.
2
         Section .21 of OMB Circular A-110, requires that a grantee’s financial management system
provide for “Effective control over and accountability for all funds, property, and assets. . . written
procedures for determining the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable cost principles and terms and conditions of the award.”


                                                     5
operational structure that includes 196 departments or offices. Each department or office
is responsible for management of its Federal grants including certification of the OTRs.
Although Arizona policy on effort reporting requires department administrative officials
use a “suitable means of verification” that the work was performed when certifying effort
reports, the policy did not define what constituted a “suitable means of verification.” The
policy also did not require administrative officials to document their “suitable means of
verification” used to support costs charged to sponsored projects.

        The audit disclosed Arizona did not meet Federal requirements for certifying
labor effort reports for NSF grants. Further, Arizona exceeded NSF’s summer salary
limitations on faculty salary. Specifically, from our sample of 30 employees whose 780
labor effort reports support $724,186 in salaries and wages charged to NSF:

           •   Department administrative officials certified 770 of 780 effort reports
               even though they were not in a position to know whether the work was
               actually performed as shown on the effort reports. Thus $709,520 or 98
               percent of the salaries and wages reviewed were not supported by valid
               effort reports because officials certified the reports without a suitable
               means of verifying an employee’s effort on NSF grants.

           •   One of five sampled faculty members improperly charged salary to
               sponsored projects by exceeding NSF’s summer salary limitations on
               faculty members. This led to Arizona inappropriately charging NSF
               $9,380 in salary and $7,204 in the related fringe benefits and overhead
               costs.

        In addition, the University has not performed any comprehensive independent
internal evaluation of its labor effort reporting system, to ensure its effectiveness and full
compliance with Federal requirements.

        These weaknesses occurred because Arizona, prior to FY 2008, did not place
sufficient emphasis on effort reporting. Specifically, Arizona had not defined what
constitutes a suitable means of verifying labor effort or established adequate internal
controls to provide for effective management and oversight of its labor effort reporting
system.

         As a result, NSF has less assurance that Arizona effort reports are reliable in
reasonably supporting salaries and wages charged to sponsored projects. The significant
nature of these control weaknesses raises concerns about the reasonableness and
reliability of the $12.1 million of FY 2007 labor charges to NSF grants that we did not
review and the salary portion of Arizona’s other $283.4 million of Federal awards.




                                              6
Department Administrative Officials Certifying Effort Reports With No Suitable Means
of Verification

        Labor effort reports were certified by departmental administrative officials that
did not have a suitable means of validating the effort charged to NSF grants. As noted,
our sample of 30 employees identified 770 of 780 effort reports that were certified by 15
departmental administrative officials without adequate information or knowledge to
verify that the work was actually performed. Although employees who conduct the work
being reported and their PIs are the most knowledgeable for effort reporting, OMB
Circular A-21 allows administrative personnel who have no first hand knowledge of the
work performed to certify effort reports provided they have a suitable means to validate
the effort. At Arizona, department administrative officials certified effort reports for 27
to 400 employees each period, depending on the number of employees in their
department. Officials stated they relied on employee time sheets as a suitable means to
validate the actual effort performed. However, timesheets could not be used as a suitable
means to validate effort performed because in most cases they did not assign the
employee’s hours to specific projects or activities. In fact, only 10 of the timesheets we
reviewed contained hours by specific projects with the rest simply providing the total
hours worked for the period. Thus, the administrative officials were not in a position to
evaluate and validate the accuracy of the labor effort allocations to the various Federal
awards, including NSF awards. For example, a department administrative official
certified eight effort reports for an employee from November 5, 2006 through February
11, 2007, supporting salary charged to NSF of $14,105. In March 2007, the PI
determined that the certification of the eight effort reports was not correct and NSF was
provided a credit of $14,105 and this amount was more appropriately charged to two non-
NSF projects. Although this error was caught and corrected, it raises concern over the
accuracy of effort reports as a whole.

Improper Salary Charges to NSF

       In addition, our review disclosed that one of five faculty members in our sample
improperly exceeded NSF’s summer salary limitations in charging salary to NSF
sponsored projects. This limitation, which includes summer salary received from all
NSF-funded grants, is known as the NSF’s two-ninths rule.3 Specifically, NSF was
erroneously charged $9,380 in salary and $7,204 in the related fringe benefits and
overhead costs due to faculty salary exceeding NSF’s two-ninths rule.

Lack of an Independent Evaluation

        Finally, Arizona had not conducted a comprehensive independent evaluation of its
payroll distribution and effort reporting system. OMB Circular A-21 requires this
evaluation to ensure university systems operate in accordance with Federal rules and
regulations for Federal grants including those provided by NSF. However, Arizona had
not performed this review either through its internal audit department or an external

3
 NSF’s two-ninths rule provided in Paragraph V.B.1.a.(ii)(b) of NSF’s Award and Administration
Guidelines.


                                                  7
organization. In fact, we could not find any evidence that a comprehensive independent
review had been performed since the effort reporting system was changed to an electronic
format in 1992.

Factors Contributing to Effort Reporting Weaknesses

        These weaknesses occurred because Arizona officials, prior to FY 2008, did not
place sufficient emphasis on effort reporting. Specifically, Arizona had not: defined what
constitutes a suitable means of effort report validation and specific NSF requirements;
required training for personnel involved in the effort reporting process; and, established
proper oversight of the effort reporting system through internal reviews and independent
audits.

        Suitable Means. Arizona did not establish any policies or procedures defining
what constitutes a suitable means of verification and the documentation required to be
maintained in the award file to demonstrate that administrative officials obtained a
suitable means of verification before certifying effort reports. None of the 15 department
administrative officials who certified effort reports for the 30 sampled employees fully
understood the concept of "using a suitable means to validate work performed" or the
Federal requirement to adequately document the means of verifying actual work
performed. For example, department administrative officials believed that employee time
sheets were a suitable means of verifying work performed even though the time sheets
did not allocate employee hours worked to specific projects or activities.

         NSF’s Two-ninths Rule. Arizona did not have a policy that fully explained and
implemented NSF’s two-ninths rule on faculty summer pay. Although the Arizona
Handbook for Principal Investigators reminds investigators of the NSF’s two-ninths rule
limiting faculty summer salaries to no more than two-ninths of academic salary, the
Handbook did not state that the limitation includes summer salary received from all NSF-
funded grants. In addition, internal forms on budgeting and approving faculty summer
salaries allows up to three summer months, which may be allowed by other Federal
agencies, but the form does not contain any language on NSF’s two-ninths rule and
restrictions. Thus, PI’s can easily overlook or confuse requirements for NSF and Federal
grants.

        Employee Training For Key Officials Was Not Mandatory. PIs and department
administrative officials are the key officials for effort reporting. Arizona appears to have
a comprehensive and well-publicized labor effort and grants management training
program on its web site, encompassing a wide range of Federal grants management
subjects, including most labor effort reporting policies and procedures. However, PIs and
department administrative officials are not required to take the online labor effort training
program. For example, 80 percent of PIs (4 of 5) we interviewed stated they did not
recall receiving effort report training.

       Oversight and Independent Internal Evaluations. In addition, Arizona did not
have a program to provide adequate oversight of the effort reporting process, nor did it



                                             8
establish policies to meet OMB requirements for independent internal evaluations.
Considering Arizona’s decentralized organizational structure, 196 departments and
offices primarily responsible for management of their own portfolio of Federal grants, the
need for strong and consistent oversight is necessary to maintain the overall integrity of
the effort reporting system. Specifically;

        Arizona provided little or no oversight of the effort reporting system. SPS, who
has overall responsibility over Federal grants at Arizona, was not monitoring departments
to ensure the department’s certification process met Federal and University requirements
for certifying effort reports.

        Arizona had not conducted a comprehensive evaluation of the effort reporting
system because University officials believed they met the A-21 requirement with their
annual OMB Circular A-133 audit.4 However, the A-133 audit was not, nor intended to
be, a comprehensive review of the effort reporting system. While the A-133 audit
procedures for effort reporting at Arizona cover some aspects of effort reporting, the
audit is not designed to be detailed or comprehensive.

        Thus, Arizona had not established any policies or procedures for a periodic and
systematic review of a system that has been operating for over 15 years. Such
comprehensive evaluations would have likely disclosed internal control deficiencies and
recommended improvements. OMB does not define how often and who should conduct
the independent evaluation, instead leaving it up to universities to establish this control
according to their program needs. For example, the evaluation could be conducted by the
internal audit office periodically or whenever there is a significant change in the effort
reporting system as long as the internal organization is independent of the effort reporting
management chain.

Current Effort Reporting System May Produce Unreliable Effort Reports and Excess
Labor Charges

        Due to internal control weaknesses as noted above, Arizona provides limited
assurance that effort reports supporting $709,520 (98%) of sampled NSF salary charges
are reliable. More significantly, those control weaknesses could affect the remaining
$12.1 million of FY 2007 labor charges to NSF grants, as well as the salary portion of
Arizona’s other $283.4 million of Federal awards. Further, Arizona lack of policies and
procedures on NSF’s two-ninths rule allowed Arizona to overcharge NSF $16,584 in
salary and associated fringe benefits and overhead.




4
 Under the Single Audit Act of 1984 (Public Law 98-502) as amended in 1996 (Public Law 104-156), non-
Federal entities that expend $500,000 or more a year in Federal awards are required to have an
organization-wide audit that includes the non-Federal entity’s financial statements and compliance with
Federal award requirements. The OMB Circular A-133 established uniform requirements among Federal
agencies for audits of States, Local Governments, and Non-Profit Organizations.


                                                  9
University Planned Improvements to its Current Effort Reporting System

       The University has recognized that its current financial management system,
including effort reporting, needed improvement and plans to implement a new electronic
financial and effort reporting system in calendar year 2010. The new system will allow
for on-line electronic certifications of effort reports. The University also decided to
replace the current effort reporting system with an interim system beginning in January
2008.

        In January 2008, the University implemented its interim effort reporting system to
bridge the gap between the current effort reporting system and the new financial
management system planned for calendar year 2010. The University recognized the
cumbersome nature and difficulties encountered in using a bi-weekly effort reporting
system and therefore changed the effort reporting period to a semi-annual cycle using
hard-copy preprinted effort reports. University officials stated that the first semi-annual
effort reports were distributed to the departments on September 3, 2008 and were
certified and returned by November 3, 2008.

        The University also revised its policy on certifying effort reports, indicating a
preference that certification is done by an employee conducting the work being reported
or PI/supervisor with first hand knowledge of work performed. However, it still allows
for department administrative officials to certify effort reports. The revised policy
requires time sheets, when used by administrative officials to validate work performed, to
include effort distribution and be signed by the employee and/or supervisor. We believe
that the policy should provide examples of documentary evidence that demonstrate
administrative officials validated effort reports prior to certifying them. Examples could
include an e-mail from the PI confirming the distribution of effort in addition to
timesheets that allocate employee hours worked to specific projects and activities.

       The recommendations provided below take into consideration the improvements
Arizona had made and planned system changes for 2010 in comparison to the system
audited.

Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

1.     Work with Arizona officials to establish an internal control structure that provides
       for a payroll distribution system that reasonably reflects the actual effort
       employees devote on sponsored projects. At a minimum, Arizona should take the
       following corrective actions to revise or establish Arizona policies on:

           a. Effort report certification to define what steps an administrative official
              should perform to demonstrate and document that a “suitable means of


                                            10
     verification” was obtained prior to certifying effort reports and require that
     such documentation be maintained in the award files.

     University of Arizona Response

     The University concurred with the recommendation and stated they have
     improved their Interim Effort Reporting Policy and Procedures to include
     additional examples of documents that can serve as a “suitable means of
     verification,” such as email messages from the principal investigator
     confirming the effort distribution or timesheets that include effort
     distribution or the hours worked on activities.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation. However,
     Arizona should consider requiring support documentation, such as email
     messages from the principal investigator confirming the effort distribution,
     be maintained in the award files.

b.   NSF two-ninths rule to clarify that the faculty salary limitation includes
     summer salary received from all NSF-funded grants and require the
     Memorandum form on Summer Supplemental Compensation to include
     the NSF two-ninths rule restriction.

     University of Arizona Response

     The University concurred with the recommendation and stated they now
     include the NSF two-ninths rule and the maximum number of hours
     allowed on NSF awards in their Guidelines for Faculty Supplemental
     Compensation and also in their internal forms on budgeting and approving
     faculty summer salaries. Additionally, SPS has implemented an annual
     review to ensure compliance with the NSF’s two-ninths rule and
     periodically sends out reminders to Arizona’s research community on this
     rule.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation.

c.   SPS or an appropriate function required to monitor the effort report
     certification processes at the department levels for providing oversight to
     ensure adequate procedures are in place.




                                  11
     University of Arizona Response

     The University concurred with the recommendation and made SPS
     responsible for monitoring the effort report certification process. SPS has
     hired a Financial Compliance Coordinator to oversee the interim paper-
     based effort reporting system to ensure that the departments certify the
     reports appropriately and within 60 days from the date the reports are
     mailed. The University said they will implement an electronic effort
     reporting system in calendar year 2010 that will significantly improve the
     efficiency and effectiveness of the monitoring process by routing effort
     reports automatically and certified electronically.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation. However, we
     advise the University to consider revising their new policy from 60 days
     from the time the reports are mailed to a specific number of days from the
     end of the effort reporting period. Otherwise, a situation could occur
     where some effort reports are certified within 90 days from the end of the
     effort reporting period and considered late while other effort reports are
     certified 180 days or later from end of the effort reporting period and are
     considered on time, based on when the effort reports are mailed. Having a
     finite number of days from the end of the effort reporting period is critical
     for the integrity of the process since principal investigators generally
     certify effort reports based on their memory. Therefore, the longer it takes
     to certify an effort report, the less assurance the University can provide
     NSF and other Federal Sponsoring agencies that the effort report is
     reliable and accurate. In our example, the late effort report (certified
     within 90 days) would have more credibility than the effort report that was
     certified on time (certified in 180 days or later).

d.   Independent evaluation of the effort reporting system required periodically
     to ensure its effectiveness and full compliance with Federal, NSF, and
     University standards. Such a requirement should identify the specific
     organization responsible for performing the evaluation and how often such
     an evaluation should be conducted.

     University of Arizona Response

     The University concurred with the recommendation and stated that the
     Internal Audit Department or external audit firm will conduct an
     independent evaluation of the effort reporting system on a periodic basis
     and when major changes take place.




                                  12
            Auditors’ Comments

            Arizona’s response met the intent of the recommendation. However, the
            University should consider defining “periodic basis” so that an
            independent evaluation will occur within so many years from the last
            evaluation. In our opinion, over a period of time, even when no major
            changes occur in the system, changes occur that could affect system
            effectiveness and meeting Federal requirements. For example, there could
            be changes in personnel, regulations, and feedback received from senior
            management.

2.   Work with Arizona officials to ensure its existing labor effort training program
     addresses Federal and Arizona requirements, is kept up to date, and is taken by all
     officials involved in the effort reporting process on a periodic basis. Such training
     should include a thorough discussion of effort reporting certification
     responsibilities and requirements.

     University of Arizona Response

     The University concurred with the recommendation and stated that new policies
     and procedures will be developed to require all officials involved in the effort
     reporting process be trained on a periodic basis. The University also said that the
     (new) SPS Financial Compliance Coordinator dedicates a significant amount of
     time to ensure training is delivered to faculty and staff and the Interim Effort
     Reporting Policy and Procedure reflects Federal and Arizona requirements and
     clarifies the roles and responsibilities in the effort reporting process.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation.

3.   Resolve the $16,584 in total questioned costs for overcharges in violation of
     NSF’s two-ninths rule ($9,380 salary, $2,420 fringe, and $4,784 overhead,
     respectively).

     University of Arizona Response

     The University concurred with the recommendation and stated that they have
     removed the questioned costs to a non-sponsored account.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation.




                                          13
2. Additional Internal Control Weaknesses Needing Management Attention

        An OMB January 2001 Clarification Memorandum5 provide that Federally-
funded research programs should have some level of committed faculty effort, paid or
unpaid by the Federal Government. Such committed faculty effort should not be
excluded from the organized research base by declaring it to be voluntary uncommitted
cost sharing. If a research sponsored project shows no faculty effort, paid or unpaid by
the Federal Government, an estimated amount must be computed by the university and
included in the organized research base. The organized research base is used in
calculating the universities indirect cost rate for charging federal grants. Federal
requirements provide (i) cost sharing contributions be verifiable from the university’s
records and not included as contributions for any other federally-assisted project or
program, and (ii) a “precision range” or “degree of tolerance” should be established for
assessing when to adjust the labor distribution on effort reports for variances between
actual and reported effort.

        Although our limited sample did not identify any specific discrepancies, our
review indicated Arizona had not established policies to ensure compliance with these
Federal requirements and its current management systems did not have the capabilities to
record, track and report cost sharing data. Due to the lack of these policies and
capabilities, there is an increased risk that indirect costs charged to sponsored projects
may be excessive, cost sharing commitments may not be met, and effort reports may be
less reliable in supporting salary charges to NSF awards. Arizona is in the process of
implementing a new financial management system; therefore, it is important these control
weaknesses are addressed in the new system.

        Labor Effort Commitments Not Tracked. Arizona did not have the capability to
track PI committed effort to the actual effort performed on the grant. Therefore, SPS
would not be able to track whether PIs, who after award of a sponsored project, redirect
their salary to a graduate student or other employee and donated their effort to an award.
Under this scenario, an estimated amount of faculty effort should be computed to go into
the organized research base. Although we did not find any PIs from our sample without
effort committed to a sponsored project (all sampled PIs had some level of committed
faculty effort),6 the lack of effective controls could result in Arizona overcharging
indirect costs to sponsored projects.

        University Cost Sharing Commitments Not Tracked. Arizona’s current financial
management system could not record, track, and report labor cost sharing commitments
and expenditures to specific sponsored projects as required by OMB guidance. This
occurred because Arizona’s current financial management system did not have the
capability to establish cost sharing account numbers relating to specific sponsored
projects. As a result, Arizona could not determine whether its cost sharing commitments
were met. The University recognized this weakness and, in an effort to mitigate the risk

5
  OMB Memorandum M-01-06, January 5, 2001, Clarification of OMB A-21 Treatment of Voluntary
Uncommitted Cost Sharing and Tuition Remission.
6
  Our sample of 30 employees contained only five PIs.


                                               14
that its cost sharing commitments were not being met, SPS created a written quality
assurance desk procedure to monitor cost sharing at the department level on an annual
basis. In FY 2007, the University had 27 NSF grants with an overall cost sharing
commitment of $3.3 million. Based on our review of the SPS quality assurance desk
procedures and cost sharing reports, SPS conducted effective cost sharing reviews at the
department level. The SPS also recognized there are no efficient tools such as an effort
reporting system or separate cost sharing accounts to assist department administrators to
manage cost sharing on a regular basis. Further the current payroll distribution system
does not efficiently assist departments to manage multiple funding sources for PIs.

        No Acceptable Variance Established for Effort Report Certification. OMB
Circular A-21 recognizes “A precise assessment of factors that contribute to costs is not
always feasible, nor is it expected. Reliance, therefore, is placed on estimates in which a
degree of tolerance is appropriate.” The Circular does not quantitatively define
“precision” or “tolerance”, but rather allows each institution to make reasonable
judgments regarding this level of precision. For example, Arizona defined a significant
change to an employees work activity as 5 percent or greater. Therefore, an employee’s
payroll distribution will not need to be changed until the work activity changes 5 percent.
Changing an employee’s payroll distribution affects future pay periods from the time the
change is made. However, Arizona did not establish a tolerance level for certifying effort
reports that would result in a one-time labor cost transfer made in the current pay period.
Without quantifiable measures, Arizona certifying officials lack a basis to determine how
much an employee’s actual effort can differ from certified effort before the effort report
must be changed. For example, 10 of the 30 sampled employees (33 percent) had 1 to 10
percent variances between actual effort, as provided by employee and/or PI in interview,
and certified effort. Five of the 10 sampled employees had variances of 5 percent or
greater. If Arizona used the same “tolerance level” as they used defining significant
changes, then 17 percent of the sampled employees (5 of 30) had variances of at least 5
percent7. Yet no effort reports were modified to reflect the change in labor distribution
for the period under review.

         Implementing Policies. Arizona did not have policies to implement and
institutionalize the OMB requirements for the issues described above. Although
mitigating controls were established for cost sharing, without a university policy it is
difficult to enforce compliance and consistency in the application of these requirements.

        Increased Risks for Excessive Costs. Arizona is operating at a higher risk that (i)
indirect costs charged to NSF awards could be excessive since its indirect cost rate may
have been lowered by increasing the organized research base for PIs that had no effort
committed to a sponsored project, (ii) cost sharing commitments of PI labor effort is not
being met, resulting in either a reduction in the planned research or unnecessary increase

7
 A March 2007 report entitled Policies and Practices: Compensation, Effort Commitments, and
Certification, issued by the Council on Governmental Relations, stated that the 5-percent standard used by
some universities was based on a 1979 interpretation by the former Department of Health, Education, and
Welfare stating “As a general rule of thumb, a change applicable to a given project or activity of 5% or
more of an employee’s total effort would warrant an adjustment by the employee or the official.”


                                                    15
in NSF funding on the grant, and (iii) effort reports could be less reliable and salaries and
wages charged to NSF awards may not be appropriate without established variance levels
for certifying officials to follow.

        New System Capabilities and Controls. As noted, Arizona is in the process of
implementing a new electronic financial management system by calendar year 2010.
SPS stated the new system would have the capability to track committed to actual time
devoted to the grant. Further, SPS stated the new financial management system will have
the capability to record, track, and report cost sharing commitments and expenditures to
specific sponsored projects. Assigning cost sharing account numbers to specific
sponsored projects would help department administrators manage cost sharing on a
regular basis and help departments manage multiple funding sources for PIs.

        The recommendations provided below take into consideration the new system
capabilities and also reminds the University of the importance of including these controls
in the new system and through its policies and procedures.

Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

1.     Work with Arizona officials to establish an internal control structure that provides
       for a payroll distribution system that reasonably reflects the actual effort
       employees devote on sponsored projects. At a minimum, Arizona should take the
       following corrective actions:

       a.      Ensure the new financial management system has capabilities to:

               1. Record and track PI committed time to the actual time devoted to a
               grant and occurs with the implementation of the new financial
               management system and track PI effort to ensure some faculty effort is
               committed to a sponsored project.

               University of Arizona Response

               The University concurred with the recommendation and stated that the
               new grants management system will have the capability to track
               committed effort and actual time devoted to a grant to ensure that some
               faculty effort is committed to a grant. The new grants management
               system is planned to start in calendar year 2010.




                                             16
     Auditors’ Comments

     Arizona’s response met the intent of the recommendation.

     2. Assign cost sharing account numbers to record, track, and report cost
     sharing commitments and expenditures to specific sponsored projects and
     occurs with the implementation of the new financial management system
     in calendar year 2010.

     University of Arizona Response

     The University concurred with the recommendation and stated that the
     new financial system, planned to begin in calendar year 2010, will have
     the capability to assign cost sharing account numbers to track cost sharing
     commitments and expenditures to specific sponsored projects.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation.

b.   Develop a policy, including a requirement to document the methodology,
     for computing an estimated amount of faculty effort that would go into the
     organized research base to ensure at least some faculty effort is committed
     to a sponsored project.

     University of Arizona Response

     The University concurred with the recommendation and stated that they
     have formally incorporated in their Principal Investigator Handbook their
     practice of ensuring that some faculty effort is committed to a sponsored
     project during their proposal review process. The University also said that
     starting in calendar year 2010 (with the implementation of the new
     financial system) they will be able to ensure that all faculty committed
     effort is included in the organized research base.

     Auditors’ Comments

     Arizona’s response met the intent of the recommendation.

c.   Establish a policy to set a “tolerance level” or “precision range” of
     accuracy to be used for certifying the reasonableness of labor effort
     allocated to each Federal award on effort reports.




                                 17
University of Arizona Response

The University concurred with the recommendation and stated they have
improved their Interim Effort Reporting Policy and Procedures to set 5
percent of an employee’s total UA compensated effort as the “tolerance
level” or “precision range” for certifying the reasonableness of effort.

Auditors’ Comments

Arizona’s response met the intent of the recommendation.




                           18
     Appendix A




19
     Appendix A




20
     Appendix A




21
     Appendix A




22
     Appendix A




23
